                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

11 Case Number: A-04050032                                                             11     Page 1 of 1
                                                                                                                11
          Our office received a concern that the PI (the subject) on an NSF award' employs the subject's
          spouse2with funds from the NSF award. The allegation was that this was done without the
          University's knowledge or approval, avoiding concerns about nepotism and conflicts of interest.

          We learned that the subject's spouse was listed as a participant on the award. We also learned
          that the original award3to the subject had been to the subject's former institution. When the
          subject moved to the University from the former institution, the NSF award was officially
          transferred to the University. At the time the award was transferred, four new participants, one
          of whom was the subject's spouse, replaced the two original co-PIS.

          We contacted the University's provost4who confirmed that one of the participants on the
          transferred award was the subject's spouse. Further, the provost explained that the subject
          informed the University at the outset that one of the participants was the subject's spouse. The
          University followed its procedures, evaluating the situation and ensuring that the subject's spouse
          would be supervised and evaluated separately to avoid any concerns about nepotism or conflicts
          of interest.

          This case is closed and no further action will be taken.




          as the sole PI.
                                                         award, is the subject's spouse.




'NSF OIG Form 2 (1 1/02)
I                                                                                                               I   I
